HHS/OIG, Audit - "Emergency Response to Hurricanes Katrina and Rita:
Audit of Program Support Centers Award Process for a Contract With JMSP and
Associates, Inc.," (A-03-06-00522)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Emergency
Response to Hurricanes Katrina and Rita:  Audit of Program Support Centers
Award Process for a Contract With JMSP and Associates, Inc.," (A-03-06-00522)
May 21, 2007
Complete Text of Report is available in PDF format (92 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Program Support Center (PSC) awarded a fixed-price contract and two modifications to JMSP and Associates, Inc. (JMSP) to furnish mobile medical services, including primary and acute care, to hurricane victims in the Katrina disaster area.
The objective of our audit was to determine whether PSC complied with Federal Acquisition Regulation (FAR) and Health and Human Services Acquisition Regulation (HHSAR) requirements during the award process with JMSP. PSC complied with FAR and HHSAR requirements during the process. PSC awarded this contract under a waiver granted by the HHS Office of Acquisition Management and Policy that limited the actions necessary to ensure full and open competition. According to procurement records, PSC determined that an unusual and compelling urgency existed sufficient to solicit from a single source, JMSP. Pursuant to FAR 6.001(c), the contract modifications were exempt from the requirements for full and open competition because they fell within the scope of the original contract.